                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number:             Al1040024                                                          Page 1 of 1



                 NSF DIG received allegations of misconduct and wrongdoing by individuals within a branch
         ofNSF,1 namely, that an NSF employee2 misrepresented and/or falsified her time and attendance
         records, that her supervisors3 were aware of and overlooked this abuse, and that staff-member
         attempts to raise the issue with management were met with harassment by another supervisory
         employee.4 The allegations also included a claim that despite evidence of mismanagement of
         government funding by fund recipients and inadequate internal controls, branch employees were
         instructed to continue funding the recipients in question.

                We reviewed the employee's time and attendance records, building access data, computer
        access logs, emails, appraisal records, and personnel files. We found no evidence that the employee
        misrepresented or falsified her time and attendance records. Rather, we found that the employee
        appropriately used leave and/or telework to account for periods when she was not physically present.
        in the office. We further found that her supervisor was aware of and had approved her flexible.
        schedule, and was pleased with her performance. Lastly, we found no evidence suggesting any staff
        member was harassed.

                Regarding the allegation of mismanagement of government funds, our office lacked the
         necessary information to investigate the matter. Specifically, the original allegations did not
         contain any details about particular grants or institutions, and we were subsequently unable to
         obtain the grant numbers of any suspect grants, or names of any suspect grantees,to review.~

                   Accordingly, this case is closed and no further action will be taken.




          2


          4




NSF OlG Fonn 2 (11/02)
